                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




         We investigated a matter that arose out of a proactive review to determine whether the awardee
         (University) reported and properly expended program income. It appeared from the review of an
         NSF award,' that the ~ n i v e r s i t ghad not reported program income in the FCTR as required,
         despite the fact that it had collected registration fees for the funded conference. Therefore, NSF
         OIG requested that the University provide information and supporting documentation for ,
         program income earned and expended for the award at issue.

         The University responded that it had collected registration fees3 for the conference, and informed
         NSF OIG that the principal investigator PI)^ had spent a significant amount of this earned
         program income5 on 5 stipends to reward students who had assisted with the conference. In
         addition, the University reported that additional program income funds were used for meals
         outside of the timeframe of the conference, as well as other unauthorized meals and purchases.

         The NSF Program ~ a n a ~confirmede r ~     that he did not authorize these program income
         expenditures, and the University reimbursed NSF for the unauthorized expenditure of program
         i n ~ o m e In
                     . ~ addition, the University confirmed that it had not received any other conference
         awards from NSF is the past several years.

                    Accordingly, this case is closed.




            Redacted
            Redacted
            Redacted




NSF OIG Fonn 2 (1 1/02)

                          -+
